U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Taylor Lohmeyer Law Firm, PLLC v. United States, No. 20-1596
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 13, 2021.
The government’s response is now due, after one extension, on July 16, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 16, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1596
TAYLOR LOHMEYER LAW FIRM PLLC
USA

STEVEN JON KNIGHT
CHAMBERLAIN, HRDLICKA,WHITE,
WILLIAMS & AUGHTRY, PC
1200 SMITH STREET
SUITE 1400
HOUSTON, TX 77002
713-658-1818
STEVEN.KNIGHT@CHAMBERLAINLAW.COM
STEVEN TOSCHER
L AW O F F I C E S HOCHMAN SALKIN
TOSCHER PEREZ P.C.
9 1 5 0 WI LSHIRE BOULEVARD
SUI TE 3 0 0
BEVERLY HILLS, CA 90212-3414
310-281-3221
TOSCHER@TAXLITIGATOR.COM

